HHS/OIG-Audit--"Audit of the California Department of Social Services
Federal Tax Refund Offset Program, (A-09-93-00083)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of the California Department of Social Services Federal Tax Refund
Offset Program," (A-09-93-00083)
August 7, 1995
Complete
Text of Report is available in PDF format (2.1 MB). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report provides the results of our review of California's
procedures for ensuring that collections of delinquent child support payments
were effectively being made under the Federal Tax Refund Offset program. We
found that the State's procedures were generally adequate for ensuring that
offsets were being made against Federal tax refunds. However, the State could
increase recoveries (we estimate about $2.9 million over a 2-year period) and
the number of cases accepted by the Internal Revenue Service for offset if
it used available procedures for correcting Social Security numbers. Additionally,
the State earned $2.1 million (Federal share $1.4 million) of interest on child
support monies but did not report the interest earned as program income as
required by Federal regulations.